U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530
January 6, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543

Re:

Trump v. Sierra Club, No. 20-138

Dear Mr. Harris:
For purposes of Rule 37.3, the petitioners hereby provide their blanket consent to the
filing of amicus briefs in support of either or neither party in the above-captioned case.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General

See Attached Service List

20-0138
TRUMP, DONALD J., PRESIDENT OF THE UNITED
STATES, ET AL.,
SIERRA CLUB, ET AL.

BENJAMIN DANIEL BATTLES
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
109 STATE STREET
MONTPELIER , VT 05609-1001
JACOB CAMPION
JULIANNA F. PASSE
445 MINNESOTA STREET
ST. PAUL, MN 55101
651-757-1459
JACOB.CAMPION@AG.STATE.MN.US
MARGARET Q. CHAPPLE
DEPUTY ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL CONNECTICUT
55 ELM STREET
PO BOX 120
HARTFORD , CT 06106
JEFFREY PAUL DUNLAP
OFFICE OF THE ATTORNEY GENERAL
20 ST. PAUL PLACE
FLOOR 20
BALTIMORE, MD 21202

JEREMY M. FEIGENBAUM
OFFICE OF THE NJ ATTORNEY GENERAL
25 MARKET ST.
FIRST FLOOR
TRENTON, NJ 08625-0080
609-376-2690
JEREMY.FEIGENBAUM@NJOAG.GOV
SUSAN P. HERMAN
DEPUTY ATTORNEY GENERAL
STATE OF MAINE
6 STATE HOUSE STATION
AUGUSTA, GA 04333
207-626-8814
SUSAN.HERMAN@MAINE.GOV
RICHARD P. HUTCHISON
LANDMARK LEGAL FOUNDATION
THE RONALD REGAN LEGAL CENTER
3100 BROADWAY
SUITE 1210
KANSAS CITY, MO 64111
816-931-5559
PETE.HUTCH@LANDMARKLEGAL.ORG
GABE JOHNSON-GARP
WISCONSIN DEPARTMENT O JUSTICE
17 WEST MAIN STREET
MADISON, WI 53707
LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM

MICHELLE SHANE KALLEN
OFFICE OF THE ATTORNEY GENERAL
202 NORTH NINTH STREET
RICHMOND, VA 23219
JOSHUA A. KLEIN
CALIFORNIA DEPT. OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
1515 CLAY STREET
SUITE 2000
OAKLAND, CA 94612-1413
JOSHUA.KLEIN@DOJ.CA.GOV
DROR LADIN
ACLU FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
212-549-2500
DLADIN@ACLU.ORG
DAVID JAY LYONS
OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF JUSTICE
820 N. FRENCH STREET
WILMINGTON, DE 19801
TANIA MAESTAS
DEPUTY ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
PO DRAWER 1508
SANTA FE, NM 87504-1508
JONA J. MAUKONEN
OREGON DEPARTMENT OF JUSTICE
1162 COURT STREET, NW
SALEM, OR 97301

ROBERT TADAO NAKATSUJI
OFFICE OF THE HAWAII ATTORNEY
GENERAL
425 QUEEN STREET
HONOLULU, HI 96813
MICHAEL J. O'NEILL
LANDMARK LEGAL FOUNDATION
3100 BROADWAY
SUITE 1210
KANSAS CITY, MO 64111
816-931-5559
MIKE@LANDMARKLEGAL.ORG
ERIC R. OLSON
OFFICE OF THE ATTORNEY GENERAL
1300 BROADWAY
10TH FLOOR
DENVER, CA 80203
720-508-6548
ERIC.OLSON@COAG.GOV
BERNARD ERIC RESTUCCIA
ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
670 LAW BUILDING
525 W. OTTAWA
LANSING, MI 48913
CALEB RUSH
OFFICE OF THE ATTORNEY GENERAL
100 WEST RANDOLPH STREET
12TH FLOOR
CHICAGO, IL 60601

JAY ALAN SEKULOW
AMERICAN CENTER FOR LAW AND JUSTICE
201 MARYLAND AVE., NE
WASHINGTON, DC 20002
202-546-8890
SEKULOW@ACLJ.ORG
HEIDI PARRY STERN
OFFICE OF THE NEVADA ATTORNEY
GENERAL (LAD VEGAS)
555 EAST WASHINGTON AVENUE
LAS VEGAS, NV 89101
JUSTIN JAMES SULLIVAN
SPECIAL ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
150 SOUTH MAIN STREET
PROVIDENCE, RI 02903
ABIGAIL TAYLOR
OFFICE OF THE MASSACHUSETTS
ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MA 02108
STEVEN C. WU
NEW YORK STATE OFFICE OF THE
ATTORNEY GENERAL
28 LIBERTY STREET
23RD FLOOR
NEW YORK, NY 10005
JAMES FRED ZAHRADKA, III
DEPUTY ATTORNEY GENERAL
1515 CLAY STREET
SUITE 2000
OAKLAND, CA 94612
JAMES.ZAHRADKA@DOJ.CA.GOV

